 DEPARTMENT OF HOMELAND SECURITY

    taff
           Office of Inspector General
    General Counsel
    Executive Secretary




                    DETENTION AND REMOVAL
                             OF
                        ILLEGAL ALIENS
              U.S. Immigration and Customs Enforcement (ICE)




OIG-06-33                 Office of Audits
                                                     April 2006
OIG-06-33                                               April 2006
                                                                        Office of Inspector General

                                                                        U.S. Department of Homeland Security
                                                                        Washington, DC 20528




                                          April 14, 2006

                                              Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established
by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, and special reports prepared as
part of our oversight responsibilities to promote economy, efficiency, and effectiveness within the
department.

This report assesses DHS’s Immigration and Customs Enforcement program for detaining and
removing illegal aliens apprehended in the United States and at ports of entry. It is based on
interviews with employees and officials of relevant agencies and institutions, direct observations,
and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our office,
and have been discussed in draft with those responsible for implementation. It is our hope that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                                     Richard L. Skinner 

                                                     Inspector General 

Table of Contents/Abbreviations 



  Executive Summary ......................................................................................................................... 1 


  Background ...................................................................................................................................... 3 


  Results of Audit ............................................................................................................................... 4 


       Detention and Removal of Illegal Aliens................................................................................... 4 


       ICE Budget Shortfall in FY 2005 ............................................................................................ 11


       Expansion of the Criminal Alien Program............................................................................... 14 


       Other Factors Impacting the Repatriation of Illegal Aliens..................................................... 15 


       Availability of Critical Data to Monitor DRO Performance ................................................... 19 


       DRO’s Strategic Plan............................................................................................................... 22 


  Conclusions and Recommendations .............................................................................................. 23


  Management Comments and OIG Analysis .................................................................................. 24 


  Appendices
  Appendix A              Types of Apprehensions...................................................................................... 28 

  Appendix B              Apprehensions Released...................................................................................... 30 

  Appendix C              ICE Apprehension, Detention, and Removal Process ......................................... 32 

  Appendix D              BTS Detention Prioritization and Requirements Memorandum ......................... 33 

  Appendix E              Purpose, Scope, and Methodology ..................................................................... 37 

  Appendix F              Management’s Comments ................................................................................... 39 

  Appendix G              Major Contributors to this Report ....................................................................... 46 

  Appendix H              Report Distribution.............................................................................................. 47





                                             Detention and Removal of Illegal Aliens
________________________________________________________________________________________________



  Abbreviations
  ACAP          Alien Criminal Apprehension Program

  BOP          Bureau of Prisons 

  BORCAP       Border Patrol Criminal Alien Program

  BTS          Border and Transportation Security 

  CAP          Criminal Alien Program

  CBP          Customs and Border Protection 

  DACS         Deportable Alien Control System

  DHS          Department of Homeland Security 

  DOJ          Department of Justice 

  DRO          Office of Detention and Removal (ICE) 

  EOIR         Executive Office of Immigration Review 

  EREM         Enforce Removal Module 

  FTE          Full Time Equivalent 

  FY           Fiscal Year 

  GAO          Government Accountability Office 

  HHS          Health and Human Services 

  ICE          Immigration and Customs Enforcement 

  IEA          Immigration Enforcement Agent

  IJ           Immigration Judge 

  INA          Immigration and Nationality Act 

  INS          Immigration and Naturalization Service 

  IRP          Institutional Removal Program

  LACJ         Los Angeles County Jail 

  OI           Office of Investigation (ICE) 

  OIG          Office of Inspector General 

  OTM          Other Than Mexican 

  SIC          Special Interest Countries 

  SST          State Sponsors of Terrorism

  USCIS        United States Citizenship and Immigration Services 





                               Detention and Removal of Illegal Aliens
                                                                                                    Audit
OIG                                                                                                 Report
Department of Homeland Security
Office of Inspector General

Executive Summary
                        This report presents the results of our review of DHS’s Immigration and
                        Customs Enforcement (ICE) program for detaining and removing illegal
                        aliens1 apprehended in the United States and at ports of entry. The program is
                        administered through ICE’s Office of Detention and Removal (DRO). The
                        objective of our review was to determine the extent to which DRO is
                        performing its mission to remove all illegal aliens who are removable,
                        including those that pose a potential national security or public safety threat to
                        the U.S.

                        Currently, DRO is unable to ensure the departure from the U.S. of all
                        removable aliens. Of the 774,112 illegal aliens apprehended during the past
                        three years, 280,987 (36%) were released largely due to a lack of personnel,
                        bed space, and funding needed to detain illegal aliens while their immigration
                        status is being adjudicated. This presents significant risks due to the inability of
                        Customs and Border Patrol (CBP) and ICE to verify the identity, country-of­
                        origin, and terrorist or criminal affiliation of many of the aliens being released.
                        Further, the declining personnel and bed space level is occurring when the
                        number of illegal aliens apprehended is increasing. For example, the number
                        of illegal aliens apprehended increased from 231,077 in FY 2002 to 275,680 in
                        FY 2004, a 19 percent increase. However, during the same period, authorized
                        personnel and funded bed space levels declined by 3 percent and 6 percent,
                        respectively. These shortfalls encourage illegal immigration by increasing the
                        likelihood that apprehended aliens will be released while their immigration
                        status is adjudicated.

                        Further, historical trends indicate that 62 percent of the aliens released will
                        eventually be issued final orders of removal by the U.S. Department of Justice
                        Executive Office of Immigration Review (EOIR) and later fail to surrender for
                        removal or abscond. Although DRO has received additional funding to
  1
    For the purposes of this report, “illegal aliens” is a comprehensive term intended to include those foreign-born
  individuals who enter, reside, or work in the United States without complying with U.S. immigration law;
  “removable aliens” are those illegal aliens who have been adjudicated as subject to removal from the U.S.;
  “criminal aliens” are those illegal aliens who have been convicted of a crime in the U.S.; and “high risk aliens”
  includes both criminal aliens and other illegal aliens, such as those from state sponsors of terrorism or special
  interest countries.



                                        Detention and Removal of Illegal Aliens
                                                        1
enhance its Fugitive Operations Program, it is unlikely that many of the
released aliens will ever be removed. As of December 30, 2005, there were
more than 544,000 released aliens with final orders of removal who have
absconded.

Declining bed space and personnel levels are also making it difficult for
ICE/DRO to detain and remove illegal aliens that are from countries other than
Mexico (OTM) including aliens from countries whose governments support
state sponsored terrorism (SST) or who promote, produce, or protect terrorist
organizations and their members (SIC). Of the 605,210 OTMs apprehended
between FY 2001 and the first six months of FY 2005, 309,733 were released
of which 45,008 (15%) purportedly originated from SST and SIC countries.

DRO estimates that in FY 2007 there will be 605,000 foreign-born individuals
admitted to state correctional facilities and local jails during the year for
committing crimes in the U.S. Of this number, DRO estimates half (302,500)
will be removable aliens. Most of these incarcerated aliens are being released
into the U.S. at the conclusion of their respective sentences because DRO does
not have the resources to identify, detain, and remove these aliens under its
Criminal Alien Program (CAP). It is estimated that DRO would need an
additional 34,653 detention beds, at an estimated cost of $1.1 billion, to detain
and remove all SST, SIC, and CAP aliens.

Additionally, DRO’s ability to detain and remove illegal aliens with final
orders of removal is impacted by (1) the propensity of illegal aliens to disobey
orders to appear in immigration court; (2) the penchant of released illegal
aliens with final orders to abscond; (3) the practice of some countries to block
or inhibit the repatriation of its citizens; and (4) two recent U.S. Supreme Court
decisions which mandate the release of criminal and other high-risk aliens
180 days after the issuance of the final removal order except in “Special
Circumstances.” Collectively, the bed space, personnel and funding shortages
coupled with the other factors, has created an unofficial “mini-amnesty”
program for criminal and other high-risk aliens.

DRO’s goal is to develop the capacity to remove all removable aliens, and it
has developed a strategic plan covering 2003-2012 entitled “Endgame,” to
accomplish that goal. However, the plan identifies several significant
challenges beyond its control, including the need for sufficient resources,
political will, and the cooperation of foreign governments. Current resources,
including those included in the FY 2006 Appropriations Act and the
Administration’s FY 2007 budget request, are not sufficient to detain all
high-risk aliens, including those from SST and SIC countries.

We are recommending that the Assistant Secretary (ICE) develop a plan to
provide ICE with the capacity to: (1) detain and remove high-risk aliens; (2)

             Detention and Removal of Illegal Aliens
                            2
                         intensify its efforts to develop alternatives to detention; and (3) resolve with
                         the State Department issues that are preventing or impeding the repatriation of
                         illegal OTMs. Also, we are recommending that DRO expedite its efforts to
                         implement a data management system that is capable of meeting its expanding
                         data collection and analysis needs relating to the detention and removal of
                         illegal aliens. Such a system would significantly enhance DRO’s ability to
                         support future budget requests, identify emerging trends, and assess its overall
                         mission performance.

    Background
                         The mission of ICE’s DRO is to promote public safety and national security by
                         ensuring the departure from the United States of all removable aliens through
                         the fair and effective enforcement of the nation’s immigration laws. 2 This is
                         accomplished through the detention and timely processing of all illegal aliens
                         with final orders of removal.

                         Each year more than one million aliens attempt to illegally enter the United
                         States without proper documentation - or enter legally but overstay or violate
                         their visas.3 Although other state, local, or federal agencies are frequently
                         involved in the identification, apprehension, and detention of illegal aliens, the
                         primary responsibility belongs to DHS and its subordinate agencies ICE and
                         CBP. Appendix C to this report illustrates the process from the point of
                         apprehension through the actual removal of an illegal alien from the United
                         States.

                         The shortage of detention bed space and its impact on DRO’s ability to remove
                         illegal aliens with final orders of removal were problems long before the
                         merger of the legacy INS into DHS. As early as 1996, a Department of Justice
                         (DOJ) OIG report cited the shortage of detention bed space as impacting
                         DOJ’s ability to deport illegal aliens with final orders of removal. Specifically,
                         the DOJ OIG concluded that the legacy INS program for deporting illegal
                         aliens had been largely ineffective, finding that 89 percent of the non-detained
                         aliens released into the U.S. who were subsequently issued final orders of
                         removal were not removed (absconded). Between 1999 and FY 2002, the U.S.
                         Attorney General identified the lack of detention bed space as a top
                         management issue for the DOJ.




2
 Illegal aliens are removable after they have been issued a final order of removal, deportation, or exclusion.
3
 Source: February 2003 U.S. DOJ report titled “The Immigration and Naturalization Service’s Removal of Aliens Issued
Final Orders”. Report Number I-2003-004


                                        Detention and Removal of Illegal Aliens
                                                        3
Results of Audit
        Detention and Removal of Illegal Aliens

                          Bed Space and Personnel Levels Fail to Keep Pace with Increase in Alien
                          Apprehensions. The number of illegal aliens apprehended has increased from
                          231,077 in FY 2002 to 275,680 in FY 2004, a 19 percent increase.4 During the
                          same period, authorized DRO personnel levels decreased by 3 percent while
                          funded bed space levels declined by 6 percent. These resource shortfalls are
                          having a negative impact on the number of illegal aliens that are being released
                          into the U.S. population. For example, between FY 2002 and FY 2004, the
                          number of illegal aliens released by DRO increased from 78,977 to 108,891, a
                          38 percent increase. Chart 1 shows the trend in alien apprehensions and
                          releases from FY 2002 through FY 2004.

                                        Chart 1 – Alien Apprehensions and Releases
                                                   (FY 2002 through FY 2004)
                            300,000

                                                   0
                                          27 5
                                                  7



                                               68
                                                35
                                               07

                                             7,

                                             5,
                                            1,




                            250,000

                                          26
                                          23




                            200,000

                                                                                                  FY 2002


                                                                                      1
                                                                                     89
                                                                          19
                            150,000

                                                                         77




                                                                                   8,
                                                                        ,1

                                                                                 10               FY 2003
                                                                      ,9

                                                                      93
                                                                    78




                            100,000

                                                                                                  FY 2004
                             50,000


                                   0

                                          Apprehensions               Releases
                          Source: DRO

                          Table 1 shows the number of apprehensions and the number of authorized
                          personnel and funded bed space available for DRO use between FY 2002 and
                          FY 2004. The data shows that authorized personnel and funded bed space
                          declined while the number of apprehensions increased.




4
 For purposes of this review, only apprehensions that are placed as active cases under DRO for detention, case
processing, or removal were considered (See Appendix A).

                                          Detention and Removal of Illegal Aliens
                                                         4
                                                                Table 1
                                                Apprehensions, Authorized Personnel, and
                                                       Funded Bed Space Levels
                                                         (FY 2002 to FY 2004)


                        Fiscal          Number of New Illegal           DRO Authorized            DRO Funded Bed
                        Year             Aliens Apprehended             Personnel Levels                   5
                                                                                                      Space
                                        During the Fiscal Year
                           2002                231,077                        4,203                     19,081
                           2003                267,355                        4,087                     18,000
                           2004                275,680                        4,087                     18,000
                          Source: ICE and DRO

                          Bed space and personnel shortages will continue through FY 2007 despite
                          efforts by the Administration and Congress to fund more beds and personnel.
                          For example, the Administration’s FY 2005 budget request for DRO included
                          $24 million to fund 534 additional detention beds and 66 personnel. Congress
                          added $16 million to the Administration’s request for a total planned increase
                          of 1,216 beds for FY 2005. However, the increased funding for additional bed
                          space and support personnel did not flow to DRO until the last quarter of
                          FY 2005 due to an ICE budget shortfall estimated at about $500 million. The
                          delay in the disbursement of enhancement funding prevented DRO from
                          increasing its detention bed space levels during most of FY 2005. The
                          FY 2006 budget will increase the total funded bed space level to 20,800.6 The
                          Administration’s FY 2007 budget request will, if approved by Congress,
                          increase total funded bed space levels to 27,500, well short of the 34,653
                          additional detention beds needed to detain all SIC, SST, and CAP aliens that
                          pose a potential national security or public safety risk to the U.S.

                          Increase in the Number of Illegal Aliens Requiring Mandatory Detention.
                          A sharp increase in the number of aliens requiring mandatory detention may
                          soon limit DRO’s ability to detain non-mandatory aliens who pose a potential
                          national security or public safety risk.7 From October 2003 to June 2005, the
                          percentage of detention bed space devoted to mandatory detainees increased
                          from 63 percent to 87 percent. The increase is significant because it further



5
  Excludes detention bed space funded by the Bureau of Prisons (BOP) and Health and Human Services (HHS).
6
  Excludes beds funded by BOP and HHS
7
  The aliens who are detained are referred to as mandatory detainees. According to the INA (P.L. 82-414, June 27, 1952
as amended) §236 and §236A, the government is required to detain certain illegal aliens who pose a national security risk
or commit crimes in the U.S. Criminal aliens include those that have been convicted of crimes involving moral turpitude,
drug smuggling, murder, and other aggravated felonies, however, some criminal aliens convicted of less serious crimes
may not require mandatory detention. The government is also required to detain certain illegal aliens with final orders
while awaiting removal during the 90-day removal period.



                                          Detention and Removal of Illegal Aliens
                                                          5
                            limits ICE's ability to detain high risk/high priority aliens that CBP and DRO
                            officials believe pose a potential national security or public safety risk to the
                            U.S.

                            DRO’s ability to detain high-risk aliens is impacted by the mandatory
                            detention requirements set by the Immigration and Nationality Act (INA).
                            Further, detention guidelines issued by the former Border and Transportation
                            Security (BTS) directorate (see Appendix D for BTS Detention Guidelines)
                            established high, medium, and low detention priorities for all other non-
                            mandatory categories of aliens. For example, the BTS detention guidelines do
                            not require the mandatory detention of “High Priority” aliens despite the fact
                            that they could exhibit specific, articulable intelligence-based factors for
                            terrorism or national security concerns.

                            These guidelines also do not require the mandatory detention of aliens who are
                            associated with ongoing criminal investigations, have committed fraud, are
                            apprehended as part of work-enforcement arrest, are suspected alien or narcotic
                            smugglers, or have demonstrated a marked propensity to abscond. Taken
                            together, the high threshold for mandatory detention set by the INA and BTS
                            guidelines, the increasing number of aliens requiring mandatory detention, and
                            ongoing bed space and personnel shortages, are forcing DRO to release
                            thousands of non-mandatory aliens that normally would have been detained
                            while their immigration status was being adjudicated. Table 2 compares
                            mandatory to non-mandatory detainees during October 2003 and June 2005.


                                                                   Table 2
                                         Comparison of Mandatory Versus Non-Mandatory Aliens Detained
                                                        In October 2003 and June 2005

                                                      Number/Percentage of             Number/Percentage Non-
                                                      Mandatory Detainees               Mandatory Detainees
                          October 2003                     12,873 - 63%                      7,431 - 37%
                                     8
                          June 2005                        16,021 - 87%                      2,487 - 13%
                            Percent Change                24% Increase                     67% Decrease
                            Source: DRO




8
    DRO Population report dated June 15, 2005.

                                             Detention and Removal of Illegal Aliens
                                                            6
                           Detention and Release of Criminal Aliens. Of the 345,006 criminal aliens
                           apprehended from FY 2001 through FY 2004, 27,947 (8%) were released.
                           Whether they were released because of a lack of detention bed space or for some
                           other reason could not be determined because such information is not tracked by
                           ICE/DRO. What is known, however, is that the number of criminal aliens being
                           apprehended and released has increased sharply and that 20,967 (75%) of these
                           criminal aliens originated from countries where the notorious Mara Salvatrucha
                           (MS-13) gang members are known to be active.9 Given the percentage of illegal
                           aliens with final orders that abscond each year and given that ICE/DRO has
                           relatively few resources to expend on the apprehension of absconders in general, it
                           is unlikely that many of the criminal aliens apprehended and released to date will
                           ever be removed. Table 3 provides a breakdown of the criminal aliens
                           apprehended and released from FY 2001 through FY 2004.

                                                                  Table 3
                                           Breakdown of Criminal Aliens Apprehended and Released
                                                            FY 2001 – FY 2004

                             Fiscal Year           Criminal Apprehensions            Number/Percentage Criminals
                                                                                             Released
                                 2001                      82,990                            5,429 / 7%
                                 2002                      81,819                            5,394 / 7%
                                 2003                      90,712                            7,736 / 9%
                                 2004                      89,485                            9,388 / 10%
                                Totals                     345,006                          27,947 / 8%
                           Source: DRO

                           Table 4 identifies the number of criminal aliens apprehended and released from
                           selected countries from October 1, 2001 through September 30, 2004.




9
    Mara Salvatrucha gang members are known to be active in Canada, El Salvador, Guatemala, Honduras, and Mexico.


                                           Detention and Removal of Illegal Aliens
                                                           7
                                        Table 4
            Criminal Aliens Apprehended and Released from Selected Countries
                    From October 1, 2001 through September 30, 2004

       Country              Total Alien        Total Criminal     Total Number / %
                           Apprehensions       Apprehensions      Criminal Released
Canada                            4,725                2,726           1,003 / 37%
Columbia                         33,540                5,121              298 / 6%
Cuba                             23,893                 3,969            537 / 14%
Dominican Republic               16,372                 8,926          1,101 / 12%
El Salvador                      58,013                 9,573             556 / 6%
Guatemala                        47,923                 6,417             322 / 5%
Honduras                         65,313                 8,232             555 / 7%
Jamaica                           7,734                 5,734             522/ 9%
Mexico                          480,563              257,718           18,531 / 7%
Nicaragua                         5,227                 1,281             116 / 9%
Philippines                       4,792                 1,990            260 / 13%
                 Totals         748,095              311,687           23,801 / 8%

Source: DRO


 Influx of Illegal Aliens From Countries Other than Mexico. Another factor
 impacting DRO’s ability to detain and remove aliens who could pose a
 national security or public safety risk is the increasing number of illegal aliens
 from countries other than Mexico who are being apprehended and released.
 For example, between FY 2001 and FY 2004, the number of OTMs
 apprehended increased from 114,266 to 145,367, a 27 percent increase. The
 increase poses a significant workload issue for DRO since OTMs, unlike
 apprehended Mexican aliens, cannot be turned around and returned at the
 border. Instead, they are often released into the U.S. population while their
 immigration status is adjudicated. From FY 2001 and through the first six
 months of FY 2005, 605,210 OTMs were apprehended, of which, 309,733
 (51%) were released.

 The rate in which OTMs are being apprehended and released (OTM release
 rate) is also a growing concern. Between FY 2001 and FY 2004, the OTM
 release rate increased from 42 percent to 54 percent. Further, the data shows
 that the OTM release rate continues to increase. During the first 6 months of
 FY 2005, the OTM release rate jumped from 54 percent to an unprecedented
 68 percent. As a result, more OTMs than ever before are being released of
 which a majority will eventually receive final orders and abscond. Table 5

                  Detention and Removal of Illegal Aliens
                                 8
 shows the number of OTM apprehensions and the number and percentage of
 OTM releases from FY 2001 through the first 6 months of FY 2005.

                                       Table 5
                          OTMs Apprehended and Released
                          (FY 2001 through March 31, 2005)

  Fiscal Year         Total OTM             Total OTMs       OTM Release Rate
                     Apprehensions           Released             %
     2001              114,266                   47,721             42%
     2002              117,916                   54,511             46%
     2003              140,369                   69,448             49%
     2004              145,367                   78,566             54%
2005 (6 mo)             87,292                   59,487             68%
            Total      605,210                  309,733             51%
Source: DRO

 DRO lacks the requisite detention bed space and support personnel needed to
 detain OTMs apprehended along the northern and southwest borders and
 within the U.S. It is not clear the extent to which decisions to release OTMs
 are being made on a risk-based versus resource-based manner. Even if risk is
 considered, the high release rate could undermine the public’s confidence in
 the department’s ability to secure our northern and southern borders.

 Illegal Aliens from Special Interest Countries and State Sponsors of
 Terrorism Countries. A significant number of OTMs that are apprehended
 and released each year originate from SIC and SST. From FY 2001 through the
 first half of FY 2005, 91,516 SIC and SST aliens were apprehended of which
 45,000 (49%) were later released. It is not known exactly how many of these
 SIC and SST aliens were ultimately issued final orders of removal and were
 actually removed since such data is not tracked by DRO. However, assuming
 SIC and SST aliens are being removed at the same rate as other apprehended
 and released aliens, 85 percent of the SIC and SST aliens released who
 eventually receive final orders of removal will abscond. Table 6 provides a
 breakdown of OTMs from SIC and SST countries that were apprehended and
 released from FY 2001 through the first 6 months of FY 2005.




                Detention and Removal of Illegal Aliens
                                9
                                                         Table 6
                                  OTMs Apprehended and Released by DRO From SIC and SST
                                              (FY 2001 thru March 31, 2005)

                 Fiscal         SIC10                SST                  Total             Total         Percent SIC
                 Year        Apprehensions       Apprehensions         SIC and SST        Released       and SST Aliens
                                                                       Apprehensions      From SIC        Apprehended
                                                                                           and SST        and Released

               2001              9,419                6,233              15,652            7,499              48%
               2002              11,962               6,574              18,536            8,807              48%
               2003              24,102               8,718              32,820            19,319             59%
               2004              8,078                7,717              15,795            6,099              39%
               200511            3,824                4,889              8,713             3,284              38%
               Total             57,385              34,131               91,516            45,008            49%
               Source: DRO

                          Immigration officials run background checks on each apprehended alien,
                          including SIC and SST aliens, to determine whether they have a criminal
                          record in the U.S. or are listed in various terrorist watch lists. However, the
                          effectiveness of these background checks is uncertain due to the difficulty that
                          CBP and ICE have in verifying the identity, country-of-origin, terrorist or
                          criminal affiliation of aliens in general. Therefore the release of these OTMs
                          poses particular risks. For example, a DHS official testified that U.S.
                          intelligence assessments indicate terrorist organizations, including those
                          operating within SIC and SST countries, believe illegal entry into the U.S. is
                          more advantageous than legal entry for operations reasons.12

                          Mandatory detention for the current number of OTMs entering the U.S. from
                          SST and SIC would require an additional 1,503 detention beds based on a
                          90-day detention stay and would cost approximately $50 million annually for
                          the additional beds.13




10
   Excludes OTM aliens apprehended from SIC countries that are also classified as state sponsors of terrorism (Iran,

Libya, Sudan, Syria) 

11
   First six months of FY 2005 

12
   Statement of the former DHS Deputy Secretary on the World Wide Threat on February 16, 2005, before the U.S. 

Senate Select Committee on Intelligence. 

13
   On average, the detention time for illegal aliens from developing nations in regular INA 240 removal proceedings takes 

89 days. Source: Testimony of Acting Director of Detention and Removal Operations before the Senate Subcommittee on

Terrorism, Technology, and Homeland Security and Subcommittee on Immigration, Border Security, and Citizenship, 7 

June 2005. One thousand detention beds cost approximately $33 million per year. 


                                          Detention and Removal of Illegal Aliens
                                                         10
                         DRO’s ability to monitor OTMs from SIC and SST could benefit from
                         advances in DRO’s Alternatives to Detention programs, too.14 As noted in the
                         following section, ICE’s FY 2005 budget constraints postponed the
                         distribution of $11 million worth of enhancement funding that had been
                         authorized by the Congress to expand the Alternatives to Detention program.
                         The FY 2006 Appropriations Act includes a total of $28 million for this
                         program.

        ICE Budget Shortfall in FY 2005
                         According to ICE, it had a budget shortfall of almost $500 million during
                         FY 2005.15 To compensate for the lack of funding, ICE placed strict limits on
                         detention bed space, recruitment, training, travel, and the expansion of critical
                         programs.16 As a result, average bed space levels fell below 2003 levels,
                         critical vacancies were left unfilled, and the planned expansion of the fugitive
                         operations programs were postponed.17

                         Additionally, ICE postponed transferring the IRP and ACAP programs from
                         the Office of Investigations to DRO. These programs prevent the release of
                         criminal aliens into the community through the identification, processing, and
                         removal of criminal aliens incarcerated in federal, state, and local correctional
                         facilities. The IRP had been criticized in past Department of Justice IG reports
                         for not identifying and removing thousands of criminal aliens incarcerated in
                         state, county, and local jails who are removable but who are not being removed
                         at the conclusion of their respective sentences due to insufficient personnel
                         resources.

                         In an effort to further minimize the effect of its FY 2005 budget shortfall, ICE
                         withheld from DRO $124 million worth of program enhancement funding
                         provided by the Congress to increase detention bed space levels and expand
                         DRO’s Fugitive Operations and Criminal Alien Program capabilities. ICE also
                         withheld DRO’s funding to cover overhead and support costs by $132 million.
                         After ICE withholdings and payroll costs, DRO was left with $610 million for
                         general detention and removal operations. This was $165 million
                         less funding than DRO had spent on general detention and removal operations
                         during FY 2004. As a result of the decreased operating budget, DRO’s bed
                         space level was well below the 19,216 detention beds intended by Congress




14
   Intensive Supervision Appearance Program and Electronic Monitoring Device Program. This pilot program is exploring 

alternative ways of rationalizing DRO custody management resources. 

15
   ICE estimate as of April 2005. 

16
   In FY 2004, ICE had a budget shortfall of almost $416 million (OIG-05-32, dated August 2005). 

17
   DRO’s average daily bed space levels dropped to 18,000 during the first 8½ months of FY 2005. In comparison, DRO 

maintained an average daily bed space level of 18,269 during FY 2003. These numbers included only DRO directly 

funded beds and excludes BOP and HHS funded beds. 



                                        Detention and Removal of Illegal Aliens
                                                        11
                          during FY 2005.18 Table 7 contains a comparison of DRO funding levels for
                          FY 2003 through FY 2005.


                                                             Table 7
                                                    Comparison of DRO Funding
                                                       (FY 2003 –FY 2005)
                                                                                                              19
                                                                      FY 2003        FY 2004        FY 2005
                                                                       ($000)         ($000)          ($000)
                        DRO Funding                                  $1,072           $1,217         $1,231
                        Enhancements Withheld                             0                0           (124)
                        Overhead & Support Withheld                    (97)            (141)           (132)
                        Payroll                                       (269)            (301)           (365)
                        Total Available for DRO Operations             $706             $775           $610
                          Source: ICE

                          On May 11, 2005, the President signed into law an emergency supplemental
                          appropriations act (P.L. 109-13) that significantly improved the ICE and DRO
                          funding situation by providing ICE with an additional $369 million to address
                          its base budget shortfalls and improve its border enforcement capabilities.20
                          Congress was aware that ICE had been unable to obligate funds for FY 2005
                          enhancements and initiatives due to the uncertainty of its financial condition
                          and a pending reprogramming. Congress specified in the conference report
                          that $93 million (25%) of the supplemental funding is to add 1,950 detention
                          beds; 50 new criminal investigators; and 168 immigration enforcement agents
                          and deportation officers.21 Also, $11 million and 79 FTEs are to be used to
                          ease the effects of the hiring freeze put in place during FY 2004 and FY 2005.
                          The conference report also directed ICE to make available an additional $54
                          million from fee collections and implements the Department’s March 11,
                          2005, request to realign $84 million in funding to detention bed space
                          (Custody Management) and $73 million to DRO’s Fugitive Operations and
                          CAP Programs.

                          According to ICE’s final budget execution plan, DRO will receive $83 million
                          over and above the original FY 2005 appropriation.22 Further, ICE will no
                          longer withhold DRO’s original enhancement funding of $124 million and
                          $103 million in funding that was previously withheld to cover overall ICE

18
   DRO had 18,000 funded beds in FY 2004 (excludes BOP and HHS funded beds). Congress provided $40 million worth 

of funding for 1,216 additional detention beds in the original FY 2005 appropriation. 

19
   Includes DRO’s original FY 2005 appropriation. Excludes supplemental funding and reflects the status of DRO funding

and ICE withholdings as of June 15, 2005. 

20
   Emergency Supplemental Appropriations Act for Defense, the Global War on Terror, and Tsunami Relief, 2005. P.L. 

109-13. 

21
   H.R. Rep. No. 109-72, at 137-138. 

22
   As of September 16, 2005. 


                                         Detention and Removal of Illegal Aliens
                                                        12
                          overhead and support funding shortages. Tables 8 and 9 outline the effect of
                          the Emergency Supplemental on DRO in FY 2005.


                                                             Table 8
                                        Emergency Supplemental Effects on DRO in FY 2005
                                                         ($ in millions)
                                                                                                          Net
                                                                       FY 2005          End            Increase/
                                                                                             23
                                                                       Enacted         Result          Decrease
                      Custody Management                                 $504             $666              $162
                      Case Management                                      192             125               (67)
                      Fugitive Operations                                   35              78                 43
                      Criminal Alien Program                                34              53                 19
                      Alternatives to Detention                             14              11                (3)
                      Transportation & Removal                             312             187             (125)
                                                         Subtotal        $1,091         $1,120                 $29
                      Breached Bond Detention Fund                           70            114                  44
                      User Fees                                              70             80                  10
                                                             Total       $1,231         $1,314                 $83
                      Source: ICE



                                                           Table 9
                             Comparison of DRO FY 2005 Funding Before and After the Supplemental
                                                       ($ in millions)
                                                                     Before the           After the
                                                                                24                  25
                                                                   Supplemental       Supplemental
                      DRO Funding                                            $1,231                  $1,314
                      Enhancements Withheld                                   (124)                    (-0-)
                      Overhead & Support Withheld                             (132)                   (100)
                      Payroll                                                 (365)                   (369)
                      Total Available for DRO Operations                      $610                    $845
                      Source: ICE

                          The additional funding provided by the supplemental allowed DRO to
                          maintain average detention bed space levels of approximately 18,500 for the
                          remainder of FY 2005 or 581 beds less than what was authorized by Congress
                          during FY 2002. As a result, DRO is also well short of the bed space levels

23
   Excludes $13.6 million of supplemental funds delayed until FY 2006. 

24
   DRO’s original FY 2005 Appropriation. Excludes supplemental funding and reflects the status of DRO funding and

ICE withholdings as of June 15, 2005. 

25
   DRO’s original FY 2005 Appropriation plus $83 million in supplemental funding. It also reflects the status of DRO

funding and ICE withholdings as of September 16, 2005. 



                                         Detention and Removal of Illegal Aliens
                                                         13
                           needed to address the increasing workload associated with OTMs and other
                           high risk aliens.

         Expansion of the Criminal Alien Program
                           The difficulty that DRO is having detaining, processing, and removing illegal
                           aliens is expected to escalate once it implements a plan to expand its CAP.26
                           The CAP identifies and processes criminal aliens incarcerated in federal, state,
                           and local correctional institutions and jails who have no legal right to remain in
                           the U.S. after serving out their sentence. DRO estimates that in FY 2007 there
                           will be 605,000 foreign-born individuals admitted to state correctional
                           facilities and local jails during the year for committing crimes in the U.S. Of
                           this number, DRO estimates half (302,500) will be removable aliens.27
                           Currently, most of these incarcerated aliens are being released into the U.S. at
                           the conclusion of their respective sentences due to the lack of DRO resources.

                           To date, the ICE budget provides for 261 immigration enforcement agents
                           (IEAs) to support the CAP through FY 2006. Each IEA is expected to process
                           300 criminal aliens annually for a total of 78,300 criminal alien cases per year
                           by FY 2008.28 In the short-term, DRO estimates that it will need a total of
                           8,581 detention beds to support its efforts to detain CAP aliens over the next
                           two years. In the long term, DRO estimates that it will need a total of 1,008
                           IEAs and 33,150 CAP detention beds to identify, detain, process, and remove
                           all criminal aliens incarcerated in state and local correctional institutions and
                           jails who are removable.29

                           Currently, ICE does not have the detention beds or support personnel needed
                           for the planned expansion of the CAP in its FY 2006 and FY 2007 budgets.
                           DHS and ICE need to ensure that any planned increase in DRO’s ability to
                           identify and remove criminal aliens be accompanied by a comparable increase
                           in support personnel, detention bed space, equipment, infrastructure, and
                           funding to ensure the timely removal of criminal aliens from the U.S.
                           Table 10 contains DRO’s CAP caseload estimates based on IEAs to be hired,




26
   DRO’s CAP is currently working to combine the Institutional Removal Program (IRP), the Alien Criminal
Apprehension Program (ACAP), and the Border Patrol Criminal Alien Program (BORCAP) into one program. These
programs are responsible for identifying and removing criminal aliens who have completed their respective sentences that
are removable.
27
   Excludes the 25,000 criminal aliens who are expected to be arrested and incarcerated in Federal correctional facilities.
28
   Each IEA is expected to screen 600 incarcerated aliens per year of which 300 (50%) are expected to qualify for
removal.
29
   At an estimated cost of $1.1 billion (at $33 million per 1,000 detention beds). Estimate excludes the cost of support
personnel.

                                           Detention and Removal of Illegal Aliens
                                                          14
                          trained, and deployed during FY 2005 and FY 2006. Table 11 includes DRO’s
                          estimate of the number of additional detention beds it will need to
                          accommodate the expansion of its CAP through the end of FY 2008.


                                                                 Table 10
                                                          CAP Caseload Estimates
                                                           FY 2006 thru FY 2007

                                                                FY2006              FY 2007           FY 2008
                          Fiscal Year         IEAs             Caseload             Caseload          Caseload
                             Hired            Hired            Estimates            Estimates         Estimates
                          FY 2005              161               26,565                 48,300           48,300
                                   30          100                6,750                 27,000           30,000
                          FY 2006
                                  Total         261              33,315                  75,300          78,300
                          Source: DRO Estimates as of October 18, 2005


                                                                 Table 11
                                                      CAP Detention Bed Space Needed
                                                                              31
                                                         FY 2006 thru FY 2008


                                                              FY 06              FY 07                FY 08
                          Detention Beds Needed               3,651              8,252                8,581
                          Source: DRO Estimates as of October 18, 2005.



        Other Factors Impacting the Repatriation of Illegal Aliens
                          Other factors impact DRO’s ability to detain and remove illegal aliens with
                          final orders of removal, including: (1) the failure of illegal aliens to obey
                          orders to appear in immigration court;32 (2) the propensity of released illegal
                          aliens with final orders to abscond; (3) the practices of some countries to block
                          or inhibit the repatriation of its citizens; and (4) two recent decisions by the
                          U.S. Supreme Court which mandate the release of aliens whose removal




30
   FY 2006 staffing of 100 IEAs is based on the FY 2006 Budget Appropriation. 

31
   Length of stay for bed space calculated at 40 days. 

32
   Of the 461,556 immigration judge decisions and administrative closures by the Executive Office of Immigration and 

Review (EOIR) between FY 2001 and FY 2004, 39 percent (181,807) were issued to aliens who had been released on 

bond, released on recognizance, or never detained and later failed to appear at their respective hearings.



                                          Detention and Removal of Illegal Aliens
                                                          15
                          orders could not be executed within a 180-day period without a determination
                          that the alien meets the exceptionally stringent “Special Circumstances”
                          requirements.33

                          Failure of Illegal Aliens to Obey Orders to Appear in Immigration Court.
                          Each year, thousands of illegal aliens fail to respond to orders to appear at their
                          scheduled immigration hearing. In most of these cases, the Immigration Judge
                          (IJ) will conduct an in absentia (in the absence of) hearing and order the alien
                          removed from the U.S. However, a failure to appear does not always result in
                          an in absentia order. In 4 percent of the cases the IJ may also administratively
                          close a failure to appear case without ordering the alien removed.34 Of the
                          461,556-immigration judge decisions and administrative closures issued by the
                          Executive Office of Immigration and Review (EOIR) between FY 2001 and
                          FY 2004, 39 percent (181,807) were issued to illegal aliens who had been
                          released but later failed to appear at their respective immigration hearings.35
                          Table 12 shows a comparison of the failures to appear rates for released aliens
                          between FY 2001 and FY 2004.

                                                               Table 12
                                       Comparison of Failure to Appear Rates for Released Aliens
                                                          (FY 2001-FY 2004)


                                            IJ Decisions/           Failures            Percentage       Annual
                                            Administrative             to                   Of           Percent
                        Fiscal Year            Closures             Appear                Total          Increase
                             2001               96,703               42,030                43%              -0­
                             2002              106,068               43,873                41%              4.3%
                             2003              124,601               43,014                35%              1.9%
                             2004              134,184               52,890                 39%            22.9%
                             Total             461,556              181,807                 39%             -------
                          Source: U.S. Department of Justice

                          Although the percentage of released aliens who failed to appear at their
                          respective hearings has declined in recent years, the total number of aliens
                          failing to appear is increasing. During FY 2001, 42,030 aliens failed to appear


33
   According to 8 CFR 241.14, Special Circumstances aliens are those individuals: (1) that have a highly contagious
disease that threatens public safety; (2) whose release would have adverse foreign policy implications; (3) present a
significant threat to national security; or (4) are violent criminals with a mental disorder.
34
   Between FY 2000 and FY 2004, administrative closures comprised 4 percent of the 935,119 Immigration Judge
decisions issued.
35
   Includes individuals who have not been in physical custody of DHS or the Department of Justice Institutional hearing
Program. It also includes aliens who were detained at some point during proceedings and subsequently released on bond
or personal recognizance.

                                          Detention and Removal of Illegal Aliens
                                                         16
                           compared to 52,890 who failed to appear during FY 2004, a 26 percent
                           increase.

                           Propensity of Illegal Aliens With Final Orders to Abscond. Based on past
                           history, the vast majority of illegal aliens who are released that are later issued
                           final orders of removal by the EOIR will abscond. This is because DRO lacks
                           the trained personnel, infrastructure, and funding needed to detain all
                           apprehended aliens while their immigration status is being adjudicated. For
                           example, DRO statistics indicate that 73 percent of the immigration cases for
                           released illegal aliens brought before the immigration judge resulted in the
                           issuance of final orders of removal. According to DRO, 85 percent of the
                           illegal aliens released that have been issued final orders of removal, will
                           abscond. Between FY 2002 and FY 2004, 280,987 illegal aliens were
                           released of which 174,212 are likely to abscond based on past statistics. As of
                           December 30, 2005, there were more than 544,000 absconders in the U.S.36

                           Countries Blocking or Inhibiting Repatriation of Illegal Aliens. Thousands
                           of criminal aliens with final orders are released because of the unwillingness
                           of some countries to issue travel documents necessary for repatriation.37
                           These countries employ a variety of means to delay the removal process. For
                           example, Ethiopia will only issue travel documents to persons who prove that
                           their parents were born in Ethiopia, provide proof of birth in Ethiopia, are able
                           to speak the language, and prove that they have family still residing in
                           Ethiopia today. Eritrea will not grant the requisite travel documents to any
                           individual who was not issued a “blue identity card” or a passport that was
                           obtained after Eritrea gained its independence from Ethiopia in 1991.

                           Other methods for blocking repatriation include:
                           • 	 requiring illegal aliens to produce overwhelming documentary evidence of
                               their nationality (Iran);
                           • 	 imposing a slow and problematic travel document issuance process (Iran,
                               China, Jamaica, India);
                           • 	 limiting the number of travel interviews being conducted (Ethiopia);
                           • 	 refusing to repatriate nationals (Laos and Vietnam).

                           As a result of these barriers to removal, DRO is being forced to devote a
                           significant percentage of its funded detention bed space (14%) to illegal aliens
                           whose countries are either slow and/or unwilling to issue travel documents
                           needed for removal. During FY 2003, the detention of criminal/non-criminal
                           aliens from the top eight uncooperative countries that block or inhibit
                           repatriation consumed 981,202 detention days and $83 million.38 Table 13

36
   Includes officially designated absconders, unexecuted orders estimated to be absconders but not officially designated as

such, and unconfirmed voluntary departures.

37
   These countries include Ethiopia, Eritrea, China, India, Iran, Jamaica, Laos. And Vietnam,

38
   The equivalent of 2,688 detention beds or 14 percent of the 19,444 funded bed space authorized during FY 2003.



                                          Detention and Removal of Illegal Aliens
                                                          17
contains a breakdown of FY 2003 detention days and estimated resources
devoted to illegal aliens from eight countries that block or inhibit the
repatriation of illegal aliens issued final orders of removal.


                                 Table 13
Breakdown of FY 2003 Detention Days and Estimated Resources Devoted to Aliens
          From Eight Countries That Block or Inhibit Repatriation


                                Detention Days            Estimated Annual
Eight Countries                    FY 2003                     Cost @
                                                              ($85/day)
Vietnam                          137,280                    $11,668,800
Jamaica                          241,114                    $20,494,690
Iran                              42,884                    $ 3,641,740
India                             99,482                    $ 8,455,970
Ethiopia                          34,761                    $ 2,954,685
Eritrea                            6,401                    $ 544,085
China                            366,540                    $31,155,900
Laos                              52,740                    $ 4,482,900
                  Total          981,202                    $83,398,770
Source: DRO

The difficulty that DRO is experiencing removing illegal aliens with final
orders has, in effect, created a mini-amnesty program for tens of thousands of
illegal aliens that are subject to removal from the U.S. It also encourages
individuals from non-cooperating countries such as China, India, and Iran to
make attempts to enter the U.S. illegally. As of June 2004, more than 133,662
illegal aliens with or pending final orders of removal had been apprehended
and released into the U.S. and who are unlikely to ever be repatriated if
ordered removed because of the unwillingness of their country of origin to
provide the documents necessary for repatriation. Table 14 contains a
breakdown of the detained/non-detained aliens from eight countries that block
or inhibit the repatriation of its citizens from the U.S.




              Detention and Removal of Illegal Aliens
                             18
                                                                Table 14
                             Breakdown in the Number of Illegal Aliens From Countries That Block or Inhibit
                                                 Repatriation (As of June 29, 2004)


                             Eight               Detained                 Non-Detained                      Total
                            Countries          Criminal/Non-          Criminal/Non-Criminal
                                                 Criminal
                          Vietnam                  352                            5,807                     6,159
                          Jamaica                  715                           11,568                    12,283
                          Iran                     105                            7,039                     7,144
                          India                    253                           28,540                    28,793
                          Ethiopia                 108                            4,454                     4,562
                          Eritrea                    21                             637                       658
                          China                    885                           72,315                    73,200
                          Laos                     140                            3,302                     3,442
                                  Total              2,579                      133,662                   136,241
                          Source: DRO

                           Impact of the U.S. Supreme Court Decisions. Two U.S. Supreme Court
                           decisions - Zadvydas v. Davis 533 U.S. 678 (2001), and Clark v. Martinez, 543
                           U.S. 371 (2005), mandate the release of criminal and other high-risk aliens 180
                           days after the issuance of the final removal order, if their repatriation to their
                           country of origin is not likely to occur in the reasonably foreseeable future
                           except in “Special Circumstances.” Exactly how many criminal and other high-
                           risk aliens have been released as a result of the Zadvydas and Martinez
                           decisions is not known since DRO did not begin tracking these releases until
                           FY 2005.39

         Availability of Critical Data to Monitor DRO Performance
                           The Office of Detention and Removal’s Deportable Alien Control System
                           lacks the ability to readily provide DRO management with data analysis
                           capabilities to manage the detention and removal program in an efficient and
                           effective manner. The lack of reliable program and analysis capabilities could
                           detrimentally affect DRO’s ability to identify emerging trends, and to assess its
                           resource requirements.

                           The Deportable Alien Control System (DACS), a 20-year old mainframe
                           system, was placed into operation by legacy INS in 1984 and continues to be
                           used by DRO to track docket control functions associated with the
                           apprehension, detention, and deportation of illegal aliens. However, DACS
                           does not contain or is not capable of readily furnishing key information for

39
  DRO has reported that 696 illegal aliens were released into the U.S. during the first 6 months of FY 2005 as a result of
these two Supreme Court decisions.


                                          Detention and Removal of Illegal Aliens
                                                          19
                         reliable assessments of the detention and removal program. For example,
                         DACS cannot provide statistical data related to (1) the number of aliens
                         categorized as mandatory, high, medium, or low priority as specified in current
                         detention guidelines; (2) the number of aliens who failed to show for
                         immigration hearings; (3) the source of apprehension, i.e. Border Patrol,
                         Investigations; and (4) the number released into the U.S population due to a
                         lack of resources. Because the aging mainframe system has limited query
                         capabilities, it cannot readily provide statistical detention and removal
                         information, such as the number of aliens apprehended by year, their detention
                         and release status, and their country of origin. Although this information is
                         stored in DACS, in order to provide the requested data DRO had to rely on
                         special programs written by DRO personnel or contractors to download,
                         compile, manipulate, and analyze information stored in the system.

                         Furthermore, information stored in DACS is not always accurate and up to
                         date. According to DRO, data quality problems are largely the result of:
                         repetitive data entry functions, incomplete data entry, delays in the actual entry
                         of detention and removal data, and the ability of DRO staff to delete or edit
                         historical information stored in the DACS system. Although we did not
                         independently assess the controls in place to ensure the reliability of data
                         maintained in DACS, GAO and the legacy INS Office of Internal Audit (OIA)
                         reported significant problems with DACS data reliability,40 including:
                         •	   no assurance that all aliens in the removal process are entered into DACS;
                         •	   final alien removal actions were not always recorded in DACS;
                         •	   inadequate controls to ensure timely data entry;
                         •	   insufficient training for DACS users; and
                         •	   lack of written standards to ensure the quality of the data entered into
                              DACS.

                         Recognizing the shortcomings of DACS, in FY 2001, DRO undertook an
                         effort to improve its data collection and analytical capability. The Enforce
                         Removal Module project (EREM) as it is called, is intended to replace DACS
                         with an automated data collection and analysis system capable of providing
                         more timely, accurate and complete analysis of immigration-related data
                         including the ability to monitor all actions and decisions relating to individual
                         alien cases and provide DRO with the statistical information it needs to
                         optimize its operations.




40
  Source: February 2003 U.S. DOJ report titled “The Immigration and Naturalization Service’s Removal of Aliens Issued
Final Orders”. Report Number I-2003-004.

                                         Detention and Removal of Illegal Aliens
                                                        20
Implementation of the EREM project has been has been delayed due to system
performance and compatibility problems. As a result of these problems, DRO
allowed the existing developer contract to lapse in April 2004, accepted new
contract bids, and awarded a new contract to a different developer in
September 2004. However, due to the time required to obtain security
clearances for its personnel, the new developer was not able to begin work
until late December 2004. To date, DRO has invested more than $15 million
into the EREM project with little to show for its effort. Further, DRO could not
predict when the EREM project will be fully implemented or at what
additional cost.

GAO Standards for Internal Control in the Federal Government and the
Government Performance Results Act of 1993 require that agencies ensure the
integrity of information for use by management in controlling operations and
making decisions and that each agency be able to assess the level of success in
achieving set performance goals, respectively.

In order to allow management sufficient oversight over the detention and
removal program, DRO should expedite its efforts to develop, test, and
implement a data management system that is capable of meeting DRO’s data
collection and analysis requirements. The data management system, at a
minimum, should be able to provide the following immigration-related data
with improved data quality for each illegal alien:
•	   country of origin;
•	   date apprehended, released, or removed;
•	   detention location;
•	   information detailing the results of the risk assessments for illegal aliens
     detained and released (by risk category –high-medium-low priority);
•	   the type and category of crime(s) committed (for criminal aliens);
•	   the rationale underlying DRO’s decision to release an alien from detention
     (if applicable);
•	   the rationale underlying DRO’s decision not to detain individual aliens;
•	   the date when individual final orders of removal were issued; and
•	   the date when the final order of removal was executed.

The data management system should also be able to provide the following
information regarding the entire population of illegal aliens in DRO custody on
a monthly and annual basis:




              Detention and Removal of Illegal Aliens
                              21
           • 	 bed space turnover rate for mandatory and non-mandatory detainees;
           • 	 the number/percentage of detainees that were detained from apprehension
               to removal; and
           • 	 the number of mandatory and non-mandatory aliens apprehended and
               detained.

           The use of an improved information technology system, coupled with quality
           controls, would greatly enhance DRO’s ability to support resource
           requirements, identify emerging trends, and assess the success of its overall
           mission.

DRO’s Strategic Plan
           In June 2003, DRO released its 2003-2012 Strategic Plan, entitled “Endgame,”
           establishing a goal of developing within 10 years the capacity to remove all
           removable aliens. The plan includes specific objectives for optimizing the
           means for detaining illegal aliens, including:

           • 	 Ensuring sufficient and appropriate bed space is available based on
               detention category, characteristic, and condition of release;
           • 	 Enhancing partnerships with other federal detention agencies for better use
               of their resources, to include facilities and training; and
           • 	 Developing a National Custody Management Plan promoting the effective
               utilization of available bed space and alternative detention settings.

           However, the plan identified several significant challenges, many beyond
           DHS’ control, including the number of aliens to remove, limited resources,
           political will, foreign governments, and non-removable aliens. For these
           reasons, DHS needs to intensify its efforts to provide ICE with the resources
           and interagency support needed to overcome these challenges.




                        Detention and Removal of Illegal Aliens
                                       22
Conclusions and Recommendations
                DRO has developed a comprehensive plan to detain and remove illegal aliens,
                but its success depends on sufficient resources and other factors beyond its
                control. Congress has appropriated funds to advance the plan, but those funds
                still fall far short of the amount needed to detain and remove all high-risk
                aliens. Further, DRO lacks the analytical capability to manage the program
                effectively. Additional actions are needed to mitigate the risks created by these
                circumstances.

          We recommend that the Assistant Secretary, ICE:

                Recommendation #1: Develop a detailed plan to ensure that ICE has the
                capacity to detain, process, and remove aliens that pose a potential national
                security or public safety risk to the U.S., including SIC, SST, and CAP aliens.
                The plan should include personnel, training, equipment, infrastructure and
                funding requirements.

                Recommendation #2: Intensify efforts to obtain the resources needed to
                expedite the development of alternatives to detention to minimize required
                detention bed space levels.

                Recommendation #3: In collaboration with the Department of State, develop
                a detailed plan to resolve travel document and related issues that are preventing
                or impeding ICE’s ability to repatriate OTM aliens. The plan should include
                timelines, milestone dates, the identity of personnel and organizations
                responsible for creating and implementing the plan, and any funding
                requirements.

                Recommendation #4: Expedite efforts to develop and implement a data
                management system that is capable of meeting its expanding data collection
                and analyses needs relating to the detention and removal of illegal aliens. The
                plan should include timelines, milestone dates, equipment and infrastructure
                requirements, a bi-annual reporting requirement outlining the progress being
                made on the project, the identity of the organizational entities to be responsible
                for implementing the planned upgrade, and any short and long-term funding
                requirements.




                             Detention and Removal of Illegal Aliens
                                             23
Management Comments and OIG Analysis
               We issued a draft version of the report to the Department on December 28,
               2005. The Department provided its written response on February 21, 2006.
               (See appendix F.) These comments were extremely useful and were
               incorporated into the final report, as appropriate. The final report is based on
               the analysis of information provided to us through March 13, 2006.

               We are pleased to learn of the Department’s commitment to provide ICE with
               resources it desperately needs to detain, process, and remove aliens that pose a
               potential national security or public safety risk to the U.S. This commitment is
               demonstrated by the Department’s concurrence with recommendations 1, 3,
               and 4, and its partial concurrence with recommendation 2. However, we are
               concerned that the Department’s response does not specifically outline the
               steps it will take to implement these recommendations, the resources that will
               be directed at these efforts, and the timeline for their completion. Our
               comments are as follows.

               Recommendation 1: Develop a detailed plan to provide ICE with the
               capacity to detain, process, and remove aliens that pose a potential national
               security or public safety risk to the U.S., including SIC, SST, and CAP aliens.
               The plan should include personnel, training, equipment, infrastructure and
               funding requirements.

               DHS Comments: The Department concurred with the recommendation.
               Under the Department’s Secure Border Initiative (SBI) program, DRO is doing
               precisely that. DRO, as part of the SBI process, has made progress in creating
               models to determine bed space needs, staffing requirements, infrastructure,
               removal requirements and funding requirements based on expectant arrest
               numbers as provided by the initiating agency. It is also engaging with other
               federal law enforcement agencies such as the Bureau of Prisons (BOP), U.S.
               Citizenship and Immigration Services (USCIS), the Department of State, and
               the Department of Justice to jointly develop a more efficient complex detention
               and removal system.

               OIG Comments: The OIG is pleased that DRO is making progress to better
               identify its requirements and the recommendation is considered resolved.
               However, the intent of our recommendation is not completely addressed in the
               response. Specifically, the response does not include specific actions the
               Department will take to provide ICE with the personnel, training, equipment,
               infrastructure, and funding needed to provide ICE with the capacity to detain,
               process, and remove aliens that pose a potential national security or public
               safety risk to the U.S. The recommendation will remain open until the
               Department provides the specific actions it plans to take to address the
               recommendation.

                            Detention and Removal of Illegal Aliens
                                           24
Recommendation 2: Intensify efforts to provide ICE with the resources
needed to expedite the development of alternatives to detention to minimize
required detention bed space levels.

DHS Comments: The Department partially concurred with the
recommendation. Currently, ICE employs alternative means of release (the
preferred term vice “alternatives to detention”), such as the Intensive
Supervision Appearance Program (ISAP) and the Electronic Monitoring
Device (EMD) Program. DRO is still evaluating these pilot programs. Once
evaluation is complete, decisions will be made about further expansion.

OIG Comments: We understand the need to evaluate the ongoing pilot
programs and examine the results before deciding whether to expand these
efforts and/or embark on other alternative programs. Nevertheless, we remain
concerned about the degree to which these pilots have been funded in the past
as well as the timeliness of these efforts. The ISAP Program has been ongoing
since June 2004. The EMD pilot, on the other hand, dates back to May 2003.
We look forward to learning the results of these pilots and the Department’s
plans to move forward in the development of cost-effective alternatives to
detention. This recommendation is considered resolved but will remain open
until the Department provides its plan for using alternative means of release.

Recommendation 3: In collaboration with the Department of State, develop a
detailed plan to resolve travel document and related issues that are preventing
or impeding ICE’s ability to repatriate OTM aliens. The plan should include
timelines, milestone dates, the identity of personnel and organizations
responsible for creating and implementing the plan, and any funding
requirements.

DHS Comments: The Department concurred with the recommendation.
Under the Department’s SBI program, DRO is working closely with the
Department of State (DOS) to address travel document and related issues
preventing or impeding the repatriation of illegal OTM aliens. Great strides
have been made in this area with Central and South American countries. The
initiation of video teleconferencing, dedicated consulate staffs as well as soon
to be implemented electronic travel documents have greatly decreased the time
needed for the issuance of a travel document.

Additionally, DRO participates in a Sanctions Working Group, which includes
representatives from ICE, DOS, the National Security Council, and Homeland
Security Council. This group’s focus on Jamaica resulted in the resolution of
issues associated with that country’s issuance of travel documents, and the
Government of Jamaica now issues travel documents within acceptable
timeframes. Current efforts are now focused on Ethiopia, with visa sanctions
as a distinct possibility if no increased cooperation is seen in the near future.



            Detention and Removal of Illegal Aliens
                            25
OIG Comments: We are pleased to learn of the progress being made by the
Department to resolve longstanding travel document issues, which have
resulted in the release of many OTM aliens into the U.S. However, these
efforts have yet to fully address the potential national security and public
safety risks associated with the Department’s inability to remove tens of
thousands of illegal aliens from China, Iran, and India from the U.S. due to
travel document-related issues. Many of these are criminal aliens who have
been issued final orders of removal but have not been removed due to the
inability of authorities to obtain the necessary travel documents. We believe
the Department needs to develop and implement a plan of action to resolve the
travel document issues and to ensure that detention personnel and bed space
are used effectively and to expedite the removal of criminal aliens and other
high-risk aliens. Therefore, the recommendation is considered resolved but
will remain open until the Department develops and implements the plan of
action.

Recommendation 4: Expedite efforts to develop and implement a data
management system that is capable of meeting its expanding data collection
and analyses needs relating to the detention and removal of illegal aliens. The
plan should include timelines, milestone dates, equipment and infrastructure
requirements, a bi-annual reporting requirement outlining the progress being
made on the project, the identity of the organizational entities to be responsible
for implementing the planned upgrade, and any short and         long-term
funding requirements.

DHS Comments: The Department concurred with the recommendation. The
ICE Office of Chief Information Officer (OCIO) is preparing a project plan for
DRO that reflects efforts to expedite the development and deployment of
enhanced information technology (IT) solutions capable of meeting the
expanding data collection and analysis needed relating to the detention and
removal of illegal aliens. The new system will allow users to capture, search,
and review information in important functional areas.

OIG Response: We are pleased to learn of ICE’s plan to develop an
automated data management system that will be capable of meeting its
expanding data collection and analysis needs relating to the detention and
removal of illegal aliens. The current system is more than 20 years old and
either does not contain or does not easily provide key information needed for
reliable assessments of ICE’s detention and removal program. Further, we
remain concerned that previous efforts by ICE to develop such a system were
largely unsuccessful despite 5 years of effort and the expenditure of at least
$15 million. If properly designed, the system should significantly enhance
ICE’s ability to support future budget requests, identify emerging trends, and
assess its overall mission performance. We are hopeful that the latest effort

             Detention and Removal of Illegal Aliens
                            26
will be more successful and look forward to seeing ICE’s plan for making it
happen. This recommendation is resolved but will remain open until the ICE
project plan is approved.

Other Comments

The Department/ICE proposed a number of technical comments in response to
the draft report. We have worked closely with the Department to address their
concerns and revised the report where necessary.

The Department/ICE stated on page 2 of their comments that there appears to
be a lack of differentiation between an alien’s pre- and post-order status as it
relates to the release statistics throughout the report, and stated that mixing the
discussion and analysis of pre- and post-order status throughout the report may
lead to the reader’s confusion. We have discussed this issue with DRO
officials. Based on these discussions, we have determined that this issue has
no impact on our findings or conclusions and would represent only an
insignificant change to the data presented in Chart 1, Tables 3 through 6, and
Table 15.

The Department/ICE stated on page 3 of their comments that the release rates
used in our report may be slightly inflated, as they would include release
premised on factors outside the control of DRO. As stated in the
Department/ICE comments, every effort was made to take these numbers out
of the statistics. We agree with the Department/ICE position that the statistics
could be slightly inflated and that the release numbers might be fewer than
quoted. However, we do not believe that any differences in the release
statistics affect the overall conclusions and recommendations in this report. To
minimize reader confusion and identify the limitations of the statistics in this
report, we have included a detailed explanation in Appendix B regarding the
reasons and circumstances that cause aliens both pre- and post-final order to be
released.




             Detention and Removal of Illegal Aliens
                             27
Appendix A
Types of Apprehensions




Types of Apprehensions
                    There are numerous types of apprehensions made by a number of different
                    sources within DHS. Not all apprehensions require DRO intervention in terms
                    of detention, case management, or removal services. The apprehensions that
                    do require DRO services are referred to in this report as active cases under
                    DRO for detention (if resources available), case processing, and removal (if
                    ordered removed). All apprehension statistics in this report include only those
                    placed as active cases under DRO. The various types of apprehensions and
                    their consideration in this report are as follows:

                    • 	 Aliens apprehended by ICE in the United States in violation of the INA
                        due to unlawful presence in the United States. Most of these
                        apprehensions would be processed for an immigration hearing before an
                        immigration judge and either placed in detention or released into the U.S.
                        population on bond or own recognizance. These are placed as active cases
                        under DRO and are included in the apprehension statistics for purposes of
                        this report.

                    • 	 Aliens apprehended by Border Patrol between the ports of entry for entry
                        without inspection. Most of these aliens (primarily Mexicans) will
                        voluntarily return (depart) under safeguard back to their country. A
                        voluntary return under safeguard is an administrative removal at the
                        request of the alien. No formal immigration hearing before an immigration
                        judge is required. Other than sometimes providing transportation services
                        to the border, voluntary returns are not placed as active cases under DRO
                        and are therefore excluded from the apprehension statistics for purposes of
                        this report. If the alien does not voluntarily return, then the alien is
                        processed for an immigration hearing before an immigration judge and
                        either placed in detention or released into the U.S. population on bond or
                        own recognizance. Those that do not voluntarily return are placed as
                        active cases under DRO and are included in the apprehension statistics for
                        purposes of this report.

                    • 	 Aliens apprehended by CBP Officers at ports of entry. Most of these
                        aliens are immediately removed by CBP Officers without any intervention
                        by DRO. These are placed as active cases under DRO and are excluded
                        from the apprehension statistics for purposes of this report. If for any
                        reason the alien is placed into removal proceedings, then the alien is
                        placed as an active case under DRO and is included in the apprehension
                        statistics for purposes of this report. Two examples are if the alien claims

                                Detention and Removal of Illegal Aliens
                                                28
Appendix A
Types of Apprehensions




                         Legal status or if the alien claims asylum, but the claim is denied or
                         otherwise referred for an asylum hearing.

                    • 	 Aliens apprehended that are incarcerated. The federal or state institution
                        detains the alien while the criminal sentence is served, but DRO provides
                        actual case processing and removal services. These are placed as active
                        cases under DRO and are included in the apprehension statistics for
                        purposes of this report.

                    • 	 Aliens denied asylum or referred for an asylum hearing after filing a
                        claim with DHS Citizenship and Immigration Services (USCIS). These are
                        placed as active cases under DRO and are included in the apprehension
                        statistics for purposes of this report.




                                 Detention and Removal of Illegal Aliens
                                                 29
Appendix B
Apprehensions Released
_________________________________________________________________________________________________


Apprehensions Released
                     Apprehended individuals are released into the U.S. population in a number of
                     ways. An individual can be released into the population at the time of initial
                     apprehension. An individual can be detained by DRO either at time of
                     apprehension or at a later date and subsequently released into the population
                     on bond, on own recognizance, on orders of supervision, or on parole. The
                     release could occur while the individual’s immigration status is being
                     adjudicated or after receiving a final order of removal.

                     For purposes of this review, the release statistics in this report in Chart 1 and
                     Tables 3 through 6 only include those individuals that were released at time of
                     initial apprehension and had not been detained by DRO as of November 2004
                     for the FY 2001 through FY 2004 apprehensions or April 2005 for FY 2005
                     apprehensions (first six months). Many of these individuals were released
                     into the U.S. population. Some were not released into the U.S. population
                     because they were immediately issued an administrative or reinstated removal
                     order and removed from the U.S. shortly following apprehension without the
                     need for DRO detention.

                     DRO could not quantify how many individuals were removed under these
                     circumstances. To the extent possible, individuals not actually released into
                     the U.S. population were excluded from the release statistics. Specifically,
                     expedited removals, voluntary returns, IRP removals, and incarcerated aliens
                     were excluded from the release statistics because while these individuals were
                     not detained by DRO they also were not released into the U.S. population.

                     Further, DRO could not identify releases into the U.S. population due to a
                     lack of resources because such information is not tracked. While many were
                     released into the U.S. population due to resource shortages, some were
                     released into the U.S. population because the individual did not appear to pose
                     a flight, public safety, or national security risk.

                     For purposes of this review, the release statistics in Chart 1 and Tables 3
                     through 6 do not include individuals that DRO detained at time of
                     apprehension or at a later date and subsequently released into U.S. population
                     on bond, own recognizance, order of supervision, or parole. Some of these
                     releases into the U.S. population are due to resource shortages, but there are
                     several other possible reasons for the release from detention.

                     According to DRO, releases from detention on parole are not likely to be due
                     to resources at all, but rather for humanitarian or some other compelling


                                  Detention and Removal of Illegal Aliens
                                                  30
Appendix B
Apprehensions Released
_________________________________________________________________________________________________

                      reason. Some of the primary non-resource driven reasons that DRO releases
                      individuals from detention on bond, own recognizance, or order of
                      supervision are as follows:

                      • 	 Immigration judges ordered the individuals released from detention.
                      • 	 The INA and Supreme Court decisions mandate that DRO release most
                          aliens if not removed within a specified period following issuance of a
                          final order of removal.
                      • 	 In the professional judgment of DRO, the alien does not pose a flight or
                          known safety risk to the public.

                      Because DRO does not track the specific reason an individual is released from
                      detention, it is not possible to determine exactly how many of the releases on
                      bond, own recognizance, or order of supervision, were due to a lack of
                      detention resources. Therefore, these types of releases are excluded from
                      Chart 1 and Tables 3 through 6 even though some are likely due to detention
                      resource limitations. Table 15 contains the number of releases for individuals
                      detained at time of apprehension that were later released on bond, own
                      recognizance, or under an order of supervision from FY 2001 through
                      FY 2004.


                                                       Table 15
                                    Aliens Apprehended, Detained and Later Released
                              On Bond, Own Recognizance (OR), and Order of Supervision (OS)
                                                  (FY 2001 –FY 2004)
                                                                              Detained and   Percentage
                                                                                Released     Released On
                                                         Apprehensions         On Bond,       Bond, OR,
                                                                              OR, and OS       and OS
                    Total Apprehensions                       998,481            80,594             8%
                    OTM Apprehensions                         517,918            65,159            13%
                    Criminal Apprehensions                    345,006            15,483             4%
                    Criminal Apprehensions from
                    select countries listed in Table 4        311,687            10,060            3%
                    SIC and SST Apprehensions                  82,803            10,420           13%
                     Source: DRO

                      If DRO tracked the number of individuals released into the U.S. population,
                      including those specifically due to resources or other factors, then DRO could
                      more precisely quantify problem areas and the impact on the effectiveness of
                      DRO operations.




                                    Detention and Removal of Illegal Aliens
                                                    31
Appendix C
ICE Apprehension, Detention, and Removal Process
_________________________________________________________________________________________________


            ICE Apprehension, Detention, and Removal Process




          Source: INS Detention and Removal Program, Critical Influences on INS Detention, May 2001, page 4,
          and DHS-OIG Analysis




                                       Detention and Removal of Illegal Aliens
                                                       32
Appendix D
BTS Detention Prioritization and Requirements Memorandum



BTS Detention Prioritization and Requirements Memorandum




                               Detention and Removal of Illegal Aliens
                                               33
Appendix D
BTS Detention Prioritization and Requirements Memorandum




                           Detention and Removal of Illegal Aliens
                                            34
Appendix D
BTS Detention Prioritization and Requirements Memorandum




                           Detention and Removal of Illegal Aliens
                                            35
Appendix D
BTS Detention Prioritization and Requirements Memorandum




                           Detention and Removal of Illegal Aliens
                                            36
Appendix E
Purpose, Scope, and Methodology


Purpose, Scope, and Methodology
                    The purpose of this audit was to determine whether ICE has sufficient
                    resources and detention facilities available to house detainees. Our audit
                    was designed to determine whether:

                    • 	 DRO is removing all illegal aliens with final orders of removal.
                    • 	 Budgetary constraints are impacting DRO’s ability to perform the
                        detention and removal mission.
                    • 	 External factors outside of DRO’s control are impacting its ability to
                        perform its detention and removal mission;
                    • 	 DRO’s Deportable Alien Control System is able to provide
                        management with the data analyses needed to measure its
                        effectiveness in performing the detention and removal mission.

                    We focused our work at the Customs and Border Protection and
                    Immigration and Customs Enforcement headquarters in Washington, D.C.;
                    and, Border and Transportation Security offices in Arizona, Texas, and
                    Florida. Our scope included information and activities through
                    March 13, 2006.

                    To identify detention and resource issues, we interviewed DHS
                    headquarters officials in the CBP and ICE offices in Washington D.C. At
                    CBP and ICE headquarters, we reviewed agency documents containing
                    budget, staffing, apprehension, release, detention, absconder, and removal
                    information. We relied on the data provided by DRO, ICE, and
                    Department of Justice for purposes of this audit. We did not test the
                    validity or reliability of the data provided.

                    We interviewed DRO, Border Patrol, CBP officials, and ICE Investigators
                    at numerous field offices. We judgmentally selected the field offices based
                    on those offices with the highest number of apprehensions as reported by
                    DHS data, based on CBP and ICE officials’ suggestions, and to ensure
                    audit coverage included air, land, and sea operational environments.
                    During the period January 2004 and April 2004, we made site visits to
                    DRO offices in Dallas, San Antonio, Port Isabel, and Harlingen, Texas;
                    Phoenix and Florence, Arizona; and Miami, Florida. Additionally, we
                    made site visits to Border Patrol offices in McAllen, Texas, Tucson,
                    Arizona; and Miami, Florida and visited CBP officers at the Brownsville,
                    Texas and Nogales, Arizona ports of entry.




                              Detention and Removal of Illegal Aliens
                                               37
Appendix E
Purpose, Scope, and Methodology



                    To determine if illegal aliens requiring mandatory detention were being
                    released into United States communities, at each DRO field office visited,
                    we reviewed a random sample from the non-detained population provided
                    by DRO from the DACS that included apprehension and detention
                    information to identify status and classification according to the detention
                    policy. With the exception of comparing DRO field office documentation
                    to the DACS data, we did not test the validity or reliability of the data
                    provided. Based on our limited testing, we conclude the data was
                    sufficiently reliable to meet the audit objective.

                    We conducted our audit between September 2003 and March 2006 under
                    the authority of the Inspector General Act of 1978, as amended, and
                    according to generally accepted government auditing standards.

                    We would like to extend our appreciation for the cooperation and
                    courtesies extended by ICE to our staff during the review.




                               Detention and Removal of Illegal Aliens
                                                38
Appendix F
Management’s Comments



Management’s Comments




                        Detention and Removal of Illegal Aliens
                                         39
Appendix F
Management’s Comments




                        Detention and Removal of Illegal Aliens
                                        40
Appendix F
Management’s Comments




                        Detention and Removal of Illegal Aliens
                                        41
Appendix F
Management’s Comments




                        Detention and Removal of Illegal Aliens
                                        42
Appendix F
Management’s Comments




                        Detention and Removal of Illegal Aliens
                                        43
Appendix F
Management’s Comments




                        Detention and Removal of Illegal Aliens
                                        44
Appendix F
Management’s Comments




                        Detention and Removal of Illegal Aliens
                                        45
Appendix G
Major Contributors to This Report



Major Contributors to This Report
                     Washington, DC Office

                     Richard T. Johnson, Director
                     USCG and Maritime Security Operations Audit Division

                     Miami Field Office

                     Julie A. Fleisher, Senior Auditor
                     Gary L. Cox, Senior Auditor
                     Danny M. Helton, Auditor




                                    Detention and Removal of Illegal Aliens
                                                    46
Appendix H
Report Distribution


Report Distribution
                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      Assistant Secretary for Public Affairs
                      Assistant Secretary for Policy
                      Assistant Secretary for Legislative and Intergovernmental Affairs
                      Assistant Secretary for ICE
                      DHS GAO/OIG Liaison
                      ICE Audit Liaison
                      Office of Detention and Removal Audit Liaison
                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner
                      Congress

                      Congressional Oversight and Appropriations Committees, as appropriate




                                  Detention and Removal of Illegal Aliens
                                                  47
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General (OIG) at
(202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at
www.dhs.gov/oig.


OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations, call the
OIG Hotline at 1-800-323-8603; write to DHS Office of Inspector General/MAIL
STOP 2600, Attention: Office of Investigations - Hotline, 245 Murray Drive, SW,
Building 410, Washington, DC 20528, fax the complaint to (202) 254-4292; or email
DHSOIGHOTLINE@dhs.gov. The OIG seeks to protect the identity of each writer
and caller.




                          Detention and Removal of Illegal Aliens
